No. 20-603

In the Supreme Court of the United States
LE ROY TORRES, PETITIONER,
v.
TEXAS DEPARTMENT OF PUBLIC SAFETY
CERTIFICATE OF SERVICE
I hereby certify that, in accordance with Supreme Court Rule 29 and this Court’s
Order of April 15, 2020, all parties required to be served have been served with copies
of the foregoing REPLY BRIEF FOR THE PETITIONER, via e-mail, this 10th day
of February 2021. All parties had previously consented to electronic service consistent
with this Court’s order of April 15, 2020.
[See Attached Service List]
I declare under penalty of perjury the foregoing is true and correct. Executed on
February 10, 2021.

/s Andrew Tutt
Andrew T. Tutt
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
andrew.tutt@arnoldporter.com
February 10, 2021

SERVICE LIST:
Kyle Douglas Hawkins
Solicitor General
Office of the Attorney General
P.O. Box 12548 (MC 059),
Austin, Texas 78711-2548
kyle.hawkins@oag.texas.gov
(512) 936-1700
Judd Edward Stone II
Assistant Solicitor General
judd.stone@oag.texas.gov
Lanora C. Pettit
Assistant Solicitor General
lanora.pettit@oag.texas.gov

